Roderick and Solange MacArthur Justice Center
375 East Chicago Avenue
Chicago, IL 60611
macarthurjusticecenter.org

David M. Shapiro
Director, Supreme Court & Appellate Program
david.shapiro@macarthurjustice.org
O 312 503 0711
F 312 503 1272

October 6, 2020
VIA U.S. MAIL
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street NE
Washington, DC 20543
Re: Stair v. Jackson, Case No. 20-183
Dear Mr. Harris,
The petition for certiorari in this matter was filed on August 13, 2020, and placed on the
docket on August 19, 2020. Respondent was previously granted a 30-day extension of time to file
a response to October 19, 2020.
Pursuant to Supreme Court Rule 30.4, Respondent respectfully requests a second 30-day
extension of time to file his response up to and including November 18, 2020.
This extension is necessary because undersigned counsel requires more time to review the
record in this matter and respond to the petition. In addition, undersigned counsel has the following
litigation deadlines during the period of the sought extension:


An opening brief and appendix in the U.S. Court of Appeals for the Tenth Circuit
in Ashaheed v. Currington, No. 20-1237, due on October 23, 2020;



Oral argument in Jones v. Mississippi, No. 18-1259, on November 3, 2020; and



A reply brief in the U.S. Court of Appeals for the Third Circuit in Talley v. Clark,
No. 20-1298, due on November 3, 2020.

Respectfully Submitted,

David M. Shapiro
Counsel for Respondent Charles Jackson
cc: Timothy Towery Coates, Counsel for Petitioner

